XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1300 I STREET, SUITE 125
P.O. BOX 944255
SACRAMENTO, CA 94244-2550

Public: (916) 445-9555
Telephone: (916) 210-6003
Facsimile: (916) 324-8835
E-Mail: Aimee.Feinberg@doj.ca.gov

September 9, 2019

Via Electronic Filing System and Federal Express
Mr. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Americans for Prosperity Foundation v. Becerra, No. 19-251, and Thomas More
Law Center v. Becerra, No. 19-255
Request for Extension of Time

Dear Mr. Harris:
The petitions for a writ of certiorari in these cases were filed on August 26, 2019.
Responses to the petitions are currently due on September 25, 2019. Pursuant to Rule 30.4,
respondent respectfully requests that the time for filing responses to both petitions be extended
by thirty days, up to and including October 25, 2019. An extension of time would better enable
preparation of a response that respondent believes would be most helpful to the Court.
Respectfully submitted,
/s Aimee Feinberg
AIMEE FEINBERG
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General of California

Derek L. Shaffer
Counsel for Americans for Prosperity Foundation
John J. Bursch
Counsel for Thomas More Law Center

